HHS/OIG, Audit - "Review of St. Peter's University Hospital's Reported
Fiscal Year 2005 Wage Data," (A-02-07-01047)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of St. Peter's University Hospital's
Reported Fiscal Year 2005 Wage Data," (A-02-07-01047)
February 29, 2008
Complete
Text of Report is available in PDF format (586 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
St. Peters University Hospital (the Hospital) did not
fully comply with Medicare requirements for reporting wage data in its fiscal
year (FY) 2005 Medicare cost report.  Specifically, the Hospital understated its
wage data by $572,108 and 110,107 hours.  Our correction of the Hospitals
errors decreased the average hourly wage rate approximately 2 percent from $36.51
to $35.76.  These errors occurred because the Hospital did not sufficiently
review and reconcile its reported wage data to supporting documentation to
ensure that the data were accurate, supportable, and in compliance with Medicare
requirements.  If the Hospital does not revise the wage data in its cost report,
the FY 2009 wage index for the Hospitals core-based statistical area will be
overstated, which will result in overpayments to all of the hospitals that use
this wage index.
We recommended that the Hospital (1) submit a revised FY 2005 Medicare cost
report to the fiscal intermediary to correct the wage data understatements
totaling $572,108 and 110,107 hours
and (2) implement review and reconciliation
procedures to ensure that the wage data reported in future Medicare cost reports
are accurate, supportable, and in compliance with Medicare requirements.
The Hospital concurred with our findings.